-
--
 in the
,-
 (      t      h
                                CLOSEOUT FOR M97050015

          This case came to OIG on May 12, 1997, when  a-
                                                   of NSF's Division 0
                 informed us of a May 7, 1997, telephone conversation with Ms.
                                                                              program director


                       e complainant). The complaint concerned a postdoctoral fellow (Dr.
                     finded by               (the grant), for whichfo-


        The complainant informed the program director that the postdoctoral fellow and the
subject had terminated their working relationship and asked if it would be possible to arrange
to transfer the grant to another institution. OIG and the deputy division direct08 discussed this
matter and agreed that it was NSF management's responsibility (and not OIG's) to determine
whether and how a funded project can be conducted if the key personnel are no longer able to
cooperate in the project. The deputy division director informed OIG that in this case NSF had
made an award to the postdoctoral fellow's new institution and was planning to terminate the
award to the PI'S university.

       The complainant's account of the postdoctoral fellow's working relationship with the
subject caused OIG to consider whether the subject had committed misconduct by (1)
misappropriating the postdoctoral fellow's work or (2) seriously deviating from accepted
mentorship practices in the scientific community.

         The complainant alleged that the postdoctoral fellow wrote the proposal that resulted in
the grant and that the subject did not even read it before it was sent to NSF. The complainant
alleged that the postdoctoral fellow made use of documentation that the subject kept in his
laboratory to write sections of the proposal, that the subject was generally familiar with her
work, that the subject had some input into her work, and that the subject knew the nature of
the proposal for which he was PI. OIG determined that the postdoctoral fellow understood
that, if the proposal were funded, it would support her to work under the subject's direction.
There is no evidence or allegation that the subject in any way claimed credit for the
postdoctoral fellow's work. Indeed, according to the complainant, the subject was responsible
for the claims of credit in the proposal only in the sense that the postdoctoral fellow stated
those claims while writing the proposal under the subject's general direction. While the

' The award is entitled "


                                      page 1 of 2                              M97-15
                                CLOSEOUT FOR M97050015

subject's allegedly minimal role in proposal preparation may be considered undesirable, it
cannot be considered a serious deviation from accepted practices.

        The complainant alleged that the subject sexually harassed the postdoctoral fellow for
nearly three years. During most of this time, according to the complainant, the subject and the
postdoctoral fellow were romantically involved with one another. The complainant alleged
that the subject used his power as one of the postdoctoral fellow's mentors to cause her to
continue their romantic involvement, despite her alleged wish to terminate it, and tolerate the
harassment. OIG determined that this alleged abuse of the mentorship relationship did not
occur "in proposing, carrying out, or reporting results from activities funded by NSF" (45
C.F.R. $ 689.l(a)(l)) and therefore fell outside our jurisdiction. The alleged abuse, for
example, though contemporaneous with the preparation of the proposal that resulted in the
subject's grant, had no explicit or special connection to the proposal preparation process. The
omp plain ant did not allege that the subject committed misconduct under the grant itself
because, by the time NSF made the grant, the subject and the postdoctoral fellow had allegedly
ended their working relationship.

       This inquiry is closed and no further action will be taken on this case.




                                      page 2 of 2
